WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-32

Gordon Scott Stroh

v.

Saturna Capital Corp., et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
❑ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
❑ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar membe
Signature
Date-

July 9, 2019

(Type or print) Name

Jeffrey B. Coopersmith
El Mr.

Firm

4‘

El Ms.

111 Mrs.

El Miss

Davis Wright Tremaine LLP

Address

920 Fifth Avenue, Suite 3300

City & State
Phone

Seattle, Washington

(206) 622-3150

Zip
Email

98101

jeffcoopersmith@dwt.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Stephen M. Kohn, Kohn, Kohn & Colapinto, LLP

